                                                  NATIONAL SCIENCE FOUNDATION
                                                   OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS

                                            CLOSEOUT MEMORANDUM

 Case Number: A04120077                                                                     Page 1 of 1



          In 2004, OIG conducted a proactive review of awards with significant monies dedicated to
          participant support. To that end, an ocean sciences award' was selected for review. A
          preliminary review of the documentation indicated that earmarked for participant support were
          used for other expenses. These expenses included alcohol, principal investigator2travel-related
          expenses and other employee travel-related expenses. Federal regulations prohibit using federal
          monies for the purchase of alcohol or alcohol related expenses. Agency specific regulations
          prohibit using "participant support funds" for other expenses such as employee-related expenses.

          OIG requested further documentation/clarification of the expenses attributed to the purchase of
          alcohol and employee travel related expenses. We reviewed the institutions response and
          determined that the alcohol expenses were actually paid for by the grantee. We solicited agency
          advice regarding the employee travel related expenses and the PO stated that the purpose of the
          grant was to support a conference and he expected grantee employees to attend using grant funds.
           The agency contracting officer agreed with the PO'S position that the grant funds had not been
          inappropriately expended. Accordingly, this case is closed.




NSF OIG Form 2 (1 1/02)
